No.
In the Supreme Court of the United States

JUAN E. SEARY-COLON, A/K/A RICKY DIABLO,
PETITIONER,
v.
UNITED STATES,
RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.
U.S.C.A. - First Cir. Bar No. 43285
U.S.D.C. - P.R. Bar No. 207710
P.O. Box 192397
San Juan, P.R. 00919-2397
Tel. No. (787) 470-4986
E-Mail: goodjrg@gmail.com

QUESTIONS PRESENTED
Whether Evidence was Totally Insufficient for the Conviction to
Stand.
PARTIES TO THE PROCEEDINGS
The Parties to the Instant Proceedings Are Contained in the
Caption of the Case.

TABLE OF CONTENTS
Page
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Opinion below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Constitutional and Statutory Provisions Involved . . . . . . . . . . . . . . . . . . . . . . . . . . 8

Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

Reasons For Granting The Petition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

Appendix A. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1(a)

3

TABLE OF AUTHORITIES

Page(s)

CASES

Manson v. Braithwaite, 432 U.S. 98, 97 S.Ct. 2243(1977) . . . . . . . . . . . 31, 33, 37
Moore v. Illinois, 434 U.S. 220 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
Neil v. Biggers, 409 U.S. 188,93 S.Ct. 375, 34 L.Ed.2d 401 (1972). . 31, 32, 33, 37
Perry v. New Hampshire, U.S. , 132 S.Ct. 716 (2012) . . . . . . . . . . . . . . . 32, 33, 34
Stovall v. Denno, 388 U.S. 293 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
U.S. v. Casey, 825 F.3d 1 (1st Cir.2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 34, 36, 37
U.S. v. Constant, 814 F.3d 570 (1st Cir.2016). . . . . . . . . . . . . . . . 31, 32, 33, 34, 35
U.S. v. De Jesus-Rios, 990 F.2d 672 (1st Cir. 1993) . . . . . . . . . . . . . . . . . . . 34, 37
U.S. v. De León-Quiñones, 588 F.3d 748 (1st Cir.2009). . . . . . . . . . . . . . . . . . . . 34
U.S. v. Espinal-Almeida, 699 F.3d 588 (1st Cir.2012) . . . . . . . . . . . . . . . . . . . . . 34
U.S. v. Gomez-Benabe, 985 F.2d 607 (1st Cir.1993) . . . . . . . . . . . . . . . . . . . . . . . 25
U.S. v. Henderson, 320 F.3d 92 (1st Cir. 2003). . . . . . . . . . . . . . . . . . . . . . . . . . . 37
U. S. v. Juan E. Seary-Colon, 18-1859 (1st Cir.) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
U.S. v. Rivera-Rivera, 555 F.3d 277 (1st Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . . 37
U.S. v. Rodríguez-Marrero, 390 F.3d 1 (1st Cir.2004) . . . . . . . . . . . . . . . . . . . . . 23
U.S. v. Rogers, 714 F.3d 82 (1st Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
4

U.S. v. Santiago-Colon, 917 F.3d 43 (1st Cir. 2019). . . . . . . . . . . . . . . . . . . . . . . 36
U.S. v. Santos-Soto, 799 F.3d at 62 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
U.S. v. Spinney, 65 F.3d 231 (1st Cir.1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
U.S. v. Wade, 388 U.S. 218 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30, 36
RULES AND STATUTES
1. U.S. Code:
18 U.S.C. § 922 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
18 U.S.C. § 924 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
18 U.S.C. § 1951 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
18 U.S.C. § 3231 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
2. Miscellaneous:
Benjamin Franklyn . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

5

In the Supreme Court of the United States

No.
JUAN E. SEARY-COLON, A/K/A RICKY DIABLO,
PETITIONER,
v.
UNITED STATES,
RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Petitioner Juan E. Seary-Colon (hereinafter Petitioner) respectfully petitions
for a writ of certiorari to review and vacate the judgment of the U.S. Court of
Appeals for the First Circuit.

6

OPINION BELOW
The Judgment (App., infra, 1a) was entered on May 4th, 2021, in U. S. v.
Juan E. Seary-Colon, under docket number 18-1859.
JURISDICTION
After the judgment was entered, no petition for rehearing was filed in this
case. The jurisdiction of this Court rests on 28 U.S.C. § 1254(1). The district
court had jurisdiction pursuant to 18 U.S.C. § 3231, and the court of appeals had
jurisdiction pursuant to 28 U.S.C. § 1291.

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the U.S. Constitution provides:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, . . .nor
be deprived of life, liberty, or property, without due process of law . .
.
The Sixth Amendment to the U.S. Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the
nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of Counsel for his
defense.
The Eighth Amendment to the U.S. Constitution provides:
Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.

8

STATEMENT OF THE CASE
A.

District Court Proceedings:

On April 19th, 2012, a District of Puerto Rico Grand Jury rendered a four
count indictment charging among others violations of 18 U.S.C. §§ 1951(a),
924(c)(1), 924(j), 922(g) and 924(a)(2)(DE 10).
On April 23rd, 2012, a death penalty eligibility notice was entered (DE 12)
and the arraignment and bail were held (DE 17). Petitioner was ordered detained
(DE 18).
On April 24th, 2012, a discovery order was issued (DE 13) and on April
26th, 2012, a status conference was held (DE 34).
On June 5th, 2012, Death Penalty Learned Counsel was appointed and on
June 12th, 2012, a second status conference was held (DE 35).
After multiple status conferences (DE 40, 46, 47, 65, 70, 95, 99, 100, 106,
110, 123, 127, 128, 129, 132, 133), discovery, mitigation and other pretrial
proceedings, on September 21st, 2015, the United States informed that it would
not seek the death penalty in this case (DE 125).

9

Thereafter, on September 20th, 2016, Petitioner moved for change of plea
(DE 137). However, after several continuances, Petitioner moved to withdraw
motion for change of plea (DE 156, 161).
On April 7th, 2017, Petitioner moved to suppress his identification (DE
164) and on May 3rd, 2017, the United States filed its response in opposition (DE
170). On May 4th, 2017, District Court denied this motion to suppress (DE 171).
During trial (DE 220 at 76, 79; DE 200 at 167; DE 256 at 43), on February 23rd,
2018, Petitioner moved for reconsideration (DE 210), however, on February 25th,
2018, same was denied (DE 216).
After several other status conferences (DE 174, 178, 180), on January 19th,
2018, Petitioner filed a motion in limine (DE 190) and on January 24th, 2018, the
government responded in agreement (DE 192, 193).
On February 5th, 2018, a pretrial hearing was held (DE 195) and on
February 7th, 2018, the government filed its proposed jury instructions (DE 194).
On February 12th, 2018, Petitioner and on February 15th, 2018, the
government submitted their respective proposed voir dire (DE 196 & 199).
On February 16th, 2018, the jury was selected (DE 200 & 257) and on
February 20th, 2018, the first day of trial began (DE 203, 213, 219). Thereafter,
10

the jury trial continued until (DE 209, 215, 220) until February 26th, 2018 (DE
221 & 256), when the jury reached a guilty verdict as to counts 1 through 4 (DE
222).
Meanwhile, on February 23rd, 2018, Petitioner submitted proposed jury
instructions and verdict form (DE 211, 212). On February 24th, 2018, the
government filed a response to Petitioner's proposed jury instructions (DE 214).
And on February 25th, 2018, the district court ruled that proposed jury instructions
at Docket No. 211 were noted and that Petitioner's jury proposed instruction 1 and
2 would be provided but it would be as in the First Circuit pattern instructions.
Nonetheless, instructions 3 and 4 would be provided(DE 217).
On April 27th, 2018, the presentence investigation report (hereinafter
PSR)(DE 231) was disclosed and on June 6th, 2018, the PSR was filed jointly with
its addendum (DE 234). Thereafter, on July 27th, 2018, the amended PSR was
disclosed (DE 236).
On August 17th, 2018, Petitioner submitted a sentencing memorandum (DE
239) and on the following day the district court entered Order (DE 241), taking
notice of its content. And on August 19th, 2018, the government filed its
sentencing memorandum (DE 242).
11

On August 20th, 2018, Petitioner was sentenced to an imprisonment term of
240 months as to Count One, Life as to Count 2, 120 months as to Count Four, to
be served concurrently with each other, but consecutively with any state case (DE
244 & 257). No supervised release term was imposed. Judgment and the Statement
of Reasons were entered this same day (DE 246 & 253).
On August 22nd, 2018, the corrections to the PSR were made (DE 243) and
on August 30th, 2018, the notice of appeal was filed (DE 247).
On September 7th, 2018, the record below was certified and transmitted to
the Court below (DE 249 & 251).
B.

Appellate Proceedings:

On March 3rd, 2020, Petitioner, through his defense counsel, submitted his
brief and on March 20th, 2020, Petitioner submitted an amended brief. On August
19th, 2020, the government submitted its brief.
Subsequently, on March 9th, 2021, oral arguments were presented and on
May 4th, 2021, the Court of Appeals entered Opinion and Judgment, affirming the
conviction and sentence imposed at the district court level.

12

REASONS FOR GRANTING THE PETITION
In the whereby case, the U.S. Court of Appeals (USCA) affirmed the district
court judgment, concluding among others, “Here, we conclude that the sum of all
the evidence presented by the government and the inferences drawn therefrom was
sufficient for a rational jury to conclude beyond a reasonable doubt that Seary was
the armed robber who murdered Méndez-Calderón on April 3rd, 2012. See U.S. v.
Santos-Soto, 799 F.3d at 62 (noting that a sufficiency-of-the-evidence challenge
will fail if the defendant's conviction "rests on sufficient evidence," even if the
jury's finding of guilt is not "inevitable based on the evidence").”
Despite the findings made by the Court of Appeals, Petitioner still believes
that the district court committed a miscarriage of justice against him. In this
regard, Petitioner believes that the record and available transcripts reveal that the
evidence considered by the jury was insufficient for his conviction to validly stand
and the District Court abused its discretion. Likewise, the verdicts entered by the
jury were inconsistent and not supported by the evidence.
The record at hand reveals that the government did not meet its burden of
proof as it failed to establish the elements of the offense of conviction beyond a

13

reasonable doubt. Hence, the evidence presented by the United States failed to
establish that Petitioner's alleged involvement in the offense of conviction.
In this particular case, the record and available transcripts reveal that the
evidence considered by the jury was insufficient for the conviction to validly stand
and to find Petitioner guilty beyond a reasonable doubt. And the identification
process is so suggestive and contaminated that any testimonial identification
evidence should have been suppressed and barred at trial.
Based on the record at hand, it is difficult to determine whether the instant
police investigation was deficient or simply put, Petitioner’s identification seem to
have been anticipated. Otherwise, if there was no extrinsic or scientific evidence
to connect Petitioner to the instant offense of conviction, how could we explain
that his photograph was included in two different photo arrays that did not follow
any particular protocol whatsoever as one was conducted with nine photos and the
other with six right after Petitioner’s newsworthy arrest. Hence, Petitioner is of the
opinion that the two photo arrays purpose was to contravene his Due Process
rights as he was certainly denied an opportunity to participate in an impartial
identification line up, especially, after his famous media arrest.

14

Moreover, Petitioner totally concedes that the jury is the ultimate fact
finder. However, when the identification process has been so contaminated and
when same is so suggestive by the government own acts or unintentional results of
a negligent investigation, the government should not be rewarded with a second
turn at the bat with the jury. It becomes a question of submitting to the jury a
greatly unreliable, suspect and untrustworthy evidentiary item. This is the main
reason our Forefathers included the Due Process Clause in our beloved
Constitution in an attempt among others to prevent this kind of foresaw abuse in
the process on the part of the government. The line is simply too thin to leave the
particulars of the instant investigation and its irregular identification unattended.
The record at hand reveals that the government did not meet its burden of
proof as it failed to establish the elements of the offenses of conviction beyond a
reasonable doubt. See DE 256 at 118 (Closing Statement). Hence, the evidence
presented by the United States failed to establish that Petitioner actually
participated in the offenses of conviction.
First, the identification of Petitioner in the alleged offense of conviction is
in question. In this regards, the testimony by a witness as to identity must be
received with caution and scrutinized with care. And this analysis should be
15

examined under higher scrutiny as the instant investigation failed to produce any
ballistic, fingerprint, gun powder, fiber residue or DNA blood spattered analysis
comparison to corroborate the alleged identification of the witnesses at hand,
leaving us only with unreliable memory identification.
Petitioner concedes that the offenses of conviction constitute an abominable
act, in which a good man, Mr. David Méndez-Calderón, was killed. Based on the
testimonies of witnesses Ms. Maria Judith Sanabria-Rivera and Mr. José MéndezDel-Valle, we can conclude that the victim was a hardworking man and a person
who was appreciated by his colleagues. However, the despicability of the offenses
and the attributes of the victim should not suffice by themselves to convict an
individual beyond a reasonable doubt.
Moreover, Petitioner concedes that on April 3rd, 2012, a robbery took place
at Piezas Importadas in Carolina, Puerto Rico. Two persons went into that
business establishment with the purpose to commit a robbery as depicted in the
video recording played for the jury. And the testimony of the witnesses
corroborated that indeed a robbery took place because these two individuals did
take the petty cash that was at the premises of such store. Nevertheless, out of the

16

12 witnesses employed by the government, only two witnesses were presented in
an effort to identify Petitioner as one of the two assailants.
In this regards, first witness Mr. José Méndez-Del-Valle, who had been an
employee in this business for approximately a year and who was working during
thisrobbery, jumped to the floor immediately when the two assailants instructed
him. He did not have much time to view the alleged assailants and was under a
high level of stress and anxiety at that moment. Mr. Méndez-Del-Valle did
identify Petitioner but from a nine photograph array. However, the record does
show that Mr. Méndez-Del-Valle’s identification may have been compromised
with the newspaper article and front page photograph of Petitioner, which was
published contemporaneously with the photographic array identification
procedure. This identification tampering may have been unwantedly or wilful, but
it is certainly so significant that Petitioner strongly believes that it irreparably
lacerated this important impartial process. To exacerbate matters, Mr. MéndezDel-Valle did not attempt to identify Petitioner in open court. Instead, the
government attempted to fill this gap in the identification through the testimony of
Agent Caamaño. The government claimed at trial that Mr. Méndez-Del-Valle
identified Petitioner to Agent Caamargo, who then identified Petitioner before the
17

jury. Nonetheless, Petitioner believes that this strategy shows the government’s
desperation to convict him instead of finding the true guilty aggressor.
Furthermore, the government’s reliance on a single witness to identify
Petitioner seems at odds with a fair conviction. Again, we must remember that
there are no DNA, gun powder, fibers, or fingerprints comparison evidence and
much lessa firearm or ammunition to tie Petitioner to the offenses of conviction.
There is simply no corroborating evidence to place Petitioner at the scene of the
robbery and much less in possession of a firearm.
Still, Petitioner cannot understand how in this stressful fast situation, the
witness allegedly saw the assailant but cannot state what this assailant was saying.
Either he saw or did not see the alleged suspect. Likewise, if the witness did claim
that Petitioner had the same jacket, why this jacket was not submitted to laboratory
testing for example to test for DNA, blood spatter or gun powder residue, or state
whether Petitioner was wearing this jacket with a very distinctive emblem. The
instant investigation purpose does not seem intended to catch the guilty
perpetrator but rather an elaborated scheme to blame Petitioner out of the agents’
gut feeling. Regrettably and as Robert Heller wrote: “Never ignore a gut feeling,
but never believe that it is enough.”
18

Later, Ms. Maria Judith Sanabria-Rivera identified Petitioner one week later
in a six photo array. Under the eyes of Petitioner, he simply does not understand
why one photograph array was conducted with nine photos while the other only
with six. Certainly, the less number of photographs, the higher the chances for
human error and to select a particular individual irregardless of guilt. Hence, there
was no specific or standard array identification procedure followed. Why this
could be permitted? Does this lack of standard accepted procedure affect the
identification reliability and trustworthiness? Did the police rely in any scientific
studies or research? On top of these issues, Ms. Sanabria-Rivera did allegedly
describe Petitioner, however, she either failed to report the tattoo on Petitioner’s
left leg or the agents failed to memorialize same. However, at trial, Ms. SanabriaRivera and F.B.I. Agent Emanuel Martinez testified about same, making this
testimony highly suspicious. These testimonial incongruencies are extremely
suspect and tend to be just shocking for a sound mind and same could potentially
lead the jury to confusion and to err in its appreciation of the facts. We must
remember that this is an awful violent event for which our human nature demands
immediate vindictiveness on our part. However, our hurry to punish the culpable
could lead us to err and to commit a travesty of justice like the one at bar.
19

Ms. Sanabria-Rivera additionally is the only witness who testified that there
were two shots made during the robbery. However, only one casing was recovered
at the scene of the robbery. Hence, there is no evidence in this case to corroborate
this allegation. One thing is for sure, at the time of the robbery Ms. Sanabria was
in a state of panic, stress and anxiety, hence, her honest memory recollection is at
issue, especially, when we do not have any other corroborating physical or
testimonial evidence to corroborate such claim.
Again, Petitioner is of the opinion that the government through its scene
witnesses could not positively identify the alleged robbers. Instead, by the time
that those interviews by the agents with the witnesses took place, Petitioner had
been placed under custody and the photographs of his legs had been taken and
disseminated. This is why Petitioner believes that the witnesses’ identification had
been tampered or at least contaminated by the agents either purposely or through
willful blindness and dereliction.
As above-mentioned, the government allegedly seized at one time or
another during the course of the instant investigation a casing, a fragment of a
bullet and a jacket casing (Exhibit 24). However, it did not conduct any ballistic

20

test or examination and much less it could connect Petitioner to any of these
evidentiary items.
Additionally, Agent Maria Cruz testified about the execution of the search
warrant on April 13th, 2012. However, during this search, no clothing, shoes, little
box with the petty cash, baseball hats, or any other evidentiary item was seized
that could connect Petitioner to the offenses of conviction. The only item seized at
the time was one fairly extremely common Federal brand .40 Smith & Wesson
bullet and all government witnesses again testified that this is a very common
ammunition. And we invite this Court to take judicial notice that this is certainly a
very-very common brand and caliber of ammunition in the United States.
Moreover, Petitioner’s step father testified that he had found such
ammunition and used same for a religious purpose. Despite this one bullet seizure,
no ballistic examinations were made and this bullet could not be linked to the
offenses at bar and much less to Petitioner. A bullet comparison cannot be made
because the government failed to conduct a ballistic examination. Imagine to be
linked to a robbery offense simply because the police found at your parents’ home
one single round of a common brand of ammunition. This premise is simply

21

preposterous, nevertheless, these are the facts, which seem to be partly designed to
totally confuse the jury.
In this particular case, the government forensic expert testified that the
victim was shot from a distance of about two feet as there was no powder residue
allegedly found. This projectile allegedly shattered some bone. However, no blood
spattering was sought. This issue intensifies because the police investigation failed
to reveal whether any clothing from Petitioner was seized, revealing blood or
DNA residue or stains from the victim. At the distance the victim was shot, it is
reasonable to infer that there would be blood spattered everywhere at the scene of
the robbery.
Nonetheless, this important part of the investigation was not pursued or
addressed, even though there were claims that Petitioner was wearing the same
clothes as the assailant and the victim drowned in his own blood. And the police
and its forensic team failed to link and match anyone with this blood and DNA
samples that were not collected but simply and recklessly ignored. This was
certainly a poor investigation on the part of the police and forensic examiners and
now, we have an innocent man behind bars because of such negligent
performance. This criticism exacerbates when we consider that several witnesses
22

spoke about some video recordings taken from the scene the day of the robbery at
bar, however, such footage was not enhanced to identify the actual culpable
parties as there were two alleged robbers.
On top of this deficient investigation, we have two witnesses, Mr. Méndez
Del-Valle and Ms. Sanabria-Rivera, who work together every day. As a matter of
fact, Ms. Sanabria-Rivera is the co-owner or at least married to the owner of
Piezas Importadas. This is why it is shocking to hear Mr. Méndez Del-Valle
declaring that he did not speak with Ms. Sanabria-Rivera about the alleged
suspect’s identification. It constitutes such a naive story which is certainly difficult
to swallow in such friendly and closely working environment.
In this particular case, Petitioner must concede that “a sufficiency of the
evidence challenge to a jury's verdict will not succeed unless no rational jury could
have concluded that the government proved all of the essential elements of the
offense beyond a reasonable doubt.” U.S. v. Rogers, 714 F.3d 82, 86 (1st Cir.
2013).
Hence, “the facts and all reasonable inferences must be drawn and evaluated
in favor of the verdict.” Rogers, 714 F.3d at 86; U.S. v. Rodríguez-Marrero, 390
F.3d 1, 6 (1st Cir.2004). However, “we must ascertain whether, after assaying all
23

the evidence in the light most amiable to the government, and taking all reasonable
inferences in its favor, a rational factfinder could find, beyond a reasonable doubt,
that the prosecution successfully proved the essential elements of the crime.” U.S.
v. Spinney, 65 F.3d 231, 234 (1st Cir.1995).
In this case, the police faulty investigation seems to have contaminated the
witnesses identification.This severe contamination is more than evident in this
criminal case as the government failed to connect Petitioner with the scene of the
offense. This missing factual link can be easily appreciated as the police failed to
compare any fingerprint, fiber, gun powder residue, blood spattered samples,
DNA, or any other evidentiary physical item which could be associated or
connected with Petitioner. This lack of comparison shows a very deficient police
and forensic investigation, which alarmingly becomes more apparent when we
consider that the instant investigation fails to reflect any DNA or ballistic
comparison. This means that besides the inconsistency of the two alleges
identifications of Petitioner, the investigation failed to reveal any other evidence to
either substantiate or support such identification and much less to justify
Petitioner’s photo inclusion in the identification arrays at hand. Likewise, the
police had other investigative tools available, however, it seems that the agents
24

were so certain that they had caught the culpable that they potentially or
unwantedly pressured and influenced the alleged witnesses into identifying
Petitioner as one of the robbers. For example, the agents seized some video
footage of the alleged robbery scene. Nonetheless, such video recordings were not
enhanced to attempt to identify the two alleged suspects. No particular part or
segment of these videos was enlarged or enhanced to attempt to accurately identify
the two suspects. And the only logical explanation seems that the agents were
certain that they had arrested the culpable party. Nevertheless, the agents total
reliance on their assumption led them to conduct and complete a faulty
investigation.
In sum, the instant offense of conviction constitutes an horrible violent
crime. However, the instant police investigation is grossly deficient for the
multiple reasons above-mentioned. And unfortunately, it is better to have one
hundred guilty individuals acquitted than to pass sentence of condemnation
against one innocent person like Petitioner. See Benjamin Franklyn, letter to
Benjamin Vaughan, March 14th, 1785, The Writings of Benjamin Franklin, ed.
Albert H. Smyth, vol. 9, p. 293 (1906)(quoting François-Marie Arouet, aka

25

Voltaire: “It is better to risk saving a guilty man than to condemn an innocent
one.”).
In this particular case, Petitioner attempted several times below to suppress
his contaminated identification (DE 164; DE 220 at 72-77, 79; 167, 172). This
means that Petitioner validly safeguarded this controversy for this forum. See, e.g.,
U.S. v. Gomez-Benabe, 985 F.2d 607 (1st Cir.1993).
As to the identification, Petitioner is alleged to have shot and killed Mr.
David Mendez Calderon, who was the store manager of Piezas Importadas, Inc.,
on April 3rd, 2012. At the time of the alleged crime, more than a dozen people
were in the small motor-parts store. Of these, only two persons have allegedly
identified Petitioner from two different photographic lineups before trial. The
prosecution in this case was based solely on the identification made by these two
(2) putative eyewitnesses who presumably were in or about the place where the
events took place.
There is no other physical or scientific evidence that could tie Petitioner to
the alleged events. The United States produced a copy of a video recorded during
the robbery, but its quality only serves to demonstrate that the event occurred, and

26

not who participated in the robbery. Only Petitioner was arrested and the other
putative robber remains at large and has yet to be identified.
Petitioner was arrested at his grandmother’s house. However, no physical or
forensic

evidence

was

found

to

link

Petitioner

to

this

incident.

Althoughapproximately $1,000 was stolen in the robbery, no money was
recovered from Petitioner. No clothes, hats or shoes were seized from his home
and no gun was recovered either. An examination of the crime scene failed to
disclose any latent fingerprints, gun powder residue or blood spattered comparison
that would place Petitioner in or around the store. It is significant to note that
neither of the alleged suspects were wearing gloves. As observed from the store’s
video recording, the suspects entered through one door and exited through another
door. As can be seen from the video recording, one participant placed his hand on
the counter to jump over the counter to get the store’s money and both the entry
and exit doors were touched by either of the suspects. The video indicates that the
robbery, from entry to exit, lasted between 30-40 seconds and the victims were
ordered to lay face-down on the floor while the robbery took place.
Following the robbery, only two eyewitnesses selected Petitioner from a
photo-array. The first witness selected Petitioner on April 4th, 2012. In a statement
27

provided on April 4th, 2012, at the Puerto Rico District Attorney’s Office, said
person stated that he was standing outside the store talking on the phone when the
two suspects entered. He stated that the shooter, who allegedly is Petitioner, was
“about 5’6” and was wearing tennis shoes. At the time of booking, personnel at
M.D.C. Guaynabo measured Petitioner as standing 5’10” in his bare feet. From a
photo array prepared the day following the events and out of presumably
thousands of photos available to the Police of Puerto Rico, and Petitioner not
being a suspect, they happened to include his photo in the photo array. From this
initial nine photo display, this witness was able to select Petitioner as the shooter.
It is highly questionable how Petitioner made it into the array when he was not a
suspect of this robbery. And the instant records fails to justify Petitioner’s
inclusion in such array. Moreover, the description given by this witness lacks
reliability as it is unduly suggestive and conducive to a mistaken identity.
The second witness selected Petitioner from a six photo array on April 17th,
2012. All the large media outlets in Puerto Rico covered his arrest. One prominent
newspaper ran his photograph from a perp walk displayed above the fold on its
front page. This large photograph appeared with a headline announcing the
apprehension of “El Diablo” (“The Devil”). On this occasion, it is clear that
28

Petitioner had already been detained(DE 220 at 79). However, on this occasion,
and in order to eschew any type of misidentification, the law enforcement agents
chose to prepare a photo array that contained only six (6) photographs, rather than
the number available on the prior occasion. This out-of-court identification was
impermissibly contaminated since the person who presumably identified
Petitioner, had already been made aware of the factthat Petitioner had been
arrested for precisely the same offense. As anyone may surmise, this significant
contamination of this second putative witness surely raises questions as to its
reliability and trustworthiness. As a witness of the robbery, and since the agents
had already arrested Petitioner as one of the perpetrators, it would have been the
best investigative course of action to conduct a line-up with all the identifiable
witness at the store. Likewise, since Petitioner had already been arrested by the
time this second identification array took place, Petitioner believes that he should
have been given the opportunity to personally or through his defense counsel to
participate in same(DE 220 at 75, 79). However, it seems that the intent was for
Petitioner to be selected from the photograph array and not to search for the guilty
perpetrator.

29

Moreover, the best practices developed by the social scientists who study
identification issues to reduce the chance of misidentification were not fully
complied with. It appears that the photos were not shown in a sequential manner,
and the array was not presented in a “double blind” manner (DE 164). See, e.g.,
Deputy Attorney General’s Memorandum for Heads of Department Law
Enforcement Components and all Department Prosecutors, regarding Procedures
for Conducting Photo Arrays, dated January 6th, 2017. While Petitioner is aware
of the fact that the Memorandum was issued after the events in this case, the
reasoning for the directive is precisely thereason why the method used in this case
has deemed to be unreliable. And it would have taken two additional seconds for
this identification array to have been video recorded(DE 220 at 73), which would
have guarded against the evils of a contaminated and unreliable identification
process. Again, this photographic array process simply leaves a bad taste and
perpetuates the major risks associated with the conviction of an innocent man.
This is why once Petitioner had been arrested, the police should have notified him
and his defense counsel and afford him an opportunity to participate in this
identification process. Since Petitioner was not afforded this opportunity, this
whole process seems unduly unfair and fishy at best.
30

Furthermore, no witness from the store mentioned or reported having
observed any tattoo on the suspect thought to be Petitioner. The perpetrators’
hands were un-gloved and their lower legs were exposed. As it is easily
ascertainable, Petitioner’s hand and leg tattoos would have been visible had he
been the perpetrator. And a simple fingerprint analysis would have identified the
actual perpetrator. However, this reckless investigation only goal was to arrest
whomever the agents intended, not the actual individuals who committed this
barbarous offense.
Throughout history, courts have warned of the unreliability of eyewitness
testimony. In U.S. v. Wade, 388 U.S. 218 (1966), for instance, Justice Brennan
noted, “The vagaries of eye-witness identification are well-known; the annals of
criminal law are rife with instances of mistaken identification.” Id. at 228. Justice
Frankfurter once wrote, “What is the worth of identification testimony even when
uncontradicted? The identification of strangers is proverbially untrustworthy.” Id.
The Court’s concern and skepticism about eyewitness testimony are supported by
statistics. According to The Innocence Project, “Eyewitness misidentification is
the single greatest cause of wrongful convictions nationwide, playing a role in
more than 75% of convictions overturned through DNA testing.” Indeed, these
31

concerns have caused the U.S. Supreme Court to establish tests that an
identification must pass to be admissible in court. If an identification procedure is
“so unnecessarily suggestive and conducive to irreparable mistaken identification,
the defendant is denied due process of law.” Stovall v. Denno, 388 U.S. 293, 302
(1967). “It is the likelihood of misidentification which violates the defendant’s
right to due process, and it is this which is the basis of the exclusion of evidence . .
.” Neil v. Biggers, 409 U.S. 188, 198 (1972). Neil v. Biggers set forth five factors
in determining whether a substantial likelihood of irreparable misidentification
exists. These factors are: (1) The opportunity of the witness to view the criminal at
the time of the crime; (2) The witness' degree of attention; (3) The accuracy of his
prior description of the criminal; (4) The level of certainty demonstrated at the
confrontation; and (5) The time betweenthe crime and the confrontation. Id. 409
U.S. at 199-200; U.S. v. Constant, 814 F.3d 570, 576 (1st Cir.2016). “The
corrupting effect of the unduly suggestive procedure is then weighed against an
analysis of these factors.” U.S. v. Constant, 814 F.3d at 576. Manson v.
Braithwaite, 432 U.S. 98 (1977), reaffirmed these guidelines and stressed that
“reliability is the linchpin in determining the admissibility of identification
testimony.” Id. at 114.
32

Petitioner does concede that the U.S. Supreme Court has held that “[i]t is the
likelihood of misidentification which violates the defendant’s right to due
process,” Neil v. Biggers, 409 U.S. at 198, not the suggestive act by a state agent.
This is why the Court emphasized that “reliability is the linchpin.”
Moreover, an in-court identification may be tainted by an earlier suggestive
identification and therefore it must also be excluded. Before admitting a
challenged in-court identification, the trial court must conduct voir dire to
determine by clear and convincing evidence whether the in-court identification is
of an independent origin and not the product of a suggestive identification. In
making this determination, the court should consider the above-noted five factors
set forth in Neil v. Biggers. Id. at 172.
Furthermore, Perry v. New Hampshire, U.S. , 132 S.Ct. 716, 724, 181
L.Ed.2d 694 (2012), held among others “[t]he Due Process Clause requires courts
toassess, on a case-by-case basis, whether improper police conduct created a
"substantial likelihood of misidentification.” See also, Neil v. Biggers, 409 U.S.
188, 201, 93 S.Ct. 375, 34 L.Ed.2d 401 (1972). In addition, “a primary aim of
excluding identification evidence obtained under unnecessarily suggestive
circumstances, the Court said, is to deter law enforcement use of improper lineups,
33

show ups, and photo arrays in the first place. Perry v. New Hampshire, at 726;
Manson v. Brathwaite, 432 U.S. 98, 112, 97 S.Ct. 2243, 53 L.Ed.2d 140 (1977).
Nonetheless, Petitioner must concede that “the very purpose of the check, the
Court noted, was to avoid depriving the jury of identification evidence that is
reliable, notwithstanding improper police conduct.”Perry v. New Hampshire, at
726; Manson v. Brathwaite, at 112-113.
Therefore, “[t]he Due Process Clause does not require a preliminary judicial
inquiry into the reliability of an eyewitness identification when the identification
was not procured under unnecessarily suggestive circumstances arranged by law
enforcement.” Id. at 730.
Conversely, should the Neil v. Biggers test fail and “if this weighing points
to a very substantial likelihood of irreparable misidentification, the identification
evidence must be suppressed.” Perry, 132 S.Ct. at 720; U.S. v. Constant, 814 F.3d
at 576. However, again, “but if the indicia of reliability are strong enough to
outweigh the corrupting effect of the police-arranged suggestive circumstances,
theidentification evidence ordinarily will be admitted, and the jury will ultimately
determine its worth. And because we usually entrust the jury with the
responsibility of determining whether lay witness testimony is reliable, we have
34

said that only extraordinary circumstances warrant the withholding of
identification evidence from it.” U.S. v. Constant, 814 F.3d at 576(quoting U.S. v.
de Jesus-Rios, 990 F.2d 672, 677 (1st Cir.1993); see also Perry, 132 S.Ct. at 723
(“Only when evidence is so extremely unfair that its admission violates
fundamental conceptions of justice have we imposed a constraint tied to the Due
Process Clause.”).
In this regard,“typically, the district court's ultimate decision to admit or
suppress identification evidence is subject to a plenary, de novo standard of
review, with underlying findings of fact reviewed for clear error.” U.S. v. De LeónQuiñones, 588 F.3d 748, 753 (1st Cir.2009); U.S. v. Constant, 814 F.3d at 576; see
also, U.S. v. Espinal-Almeida, 699 F.3d 588, 602 (1st Cir.2012); U.S. v. Casey,
825 F.3d 1, 17 (1st Cir.2016)(“District court decisions denying motions to suppress
pre-trial identifications are reviewed de novo, but with deference to any findings
of fact.”). Nevertheless,“simply put, gauging the reliability of a witness's
testimony in a case like this is precisely the type of judgment that trial judges are
both well-equipped and well-positioned to make.” U.S. v. Constant, 814 F.3d at
576-577. And as abovedescribed, Petitioner has grounds to be alarmed as his

35

identification process seems suspicious, unduly suggestive and full of
irregularities which should bar its usage at trial.
Again, in this case, we have two photo arrays. One with 9 photos and the
other with 6 conducted at different times. The second photo array was conducted
after Petitioner’s newsworthy arrest and neither photo array was recorded.
Petitioner does not understand why his particular photograph was included in both
photo arrays when there was no evidence at all to link him to the offense at bar.
Likewise, Petitioner does not understand why one photo array had 9 photographs
while the other 6 photographs. Under these same lines, if Petitioner had already
been arrested and allegedly identified in the first photo array, why was not he or
his defense counsel notified of this second photo array. Why the police simply did
not conduct a normal identification line up process? Even if the police did not
intend to be unfair, this identification process seems contaminated and corrupted.
The police agents did not follow any particular identification protocol, building
the same suspicious grounds that tainted and invalidated the instant identification
process. And even though the instant record contains no documentation of the
array assembly procedure or any report about the identification process, common
sense should not be left behind in this analysis. Hence, after examining the
36

multiple irregularities herein committed by the investigative agents, Petitioner is
of the opinion that his identification process seems to be unduly suggestive and
therefore, shocking to the senses.
Based the above mentioned contamination, Petitioner believes that both
photographic arrays should have been suppressed as well as the in court
identifications should have not been allowed. See U.S. v. Santiago-Colon, 917
F.3d 43 (1st Cir. 2019). The multiple negligent acts committed during the course of
the instant investigation on the part of the police in its identification process
clearly and convincingly to show that the in-court identification was based upon
observations of the suspect in the lineup identification. See, e.g., Moore v. Illinois,
434 U.S. 220, 225-26 (1977); U.S. v. Wade, 388 U.S. 218, 240 (1967). And the
mere appearance of impropriety should more than suffice as the own conduct of
the agents adversely affected the two photo arrays and in court identification of
Petitioner.
In sum, “a court should exclude an out-of-court identification based on a
photo array only in those extraordinary cases where there is a very substantial
likelihood of irreparable misidentification, a situation which could result in an
unfair trial in violation of the defendant's due process rights.” U.S. v. Casey, 825
37

F.3d 1, 17 (1st Cir.2016)(quoting U.S. v. Henderson, 320 F.3d 92, 100 (1st Cir.
2003) and U.S. v. De Jesus-Rios, 990 F.2d 672, 677 (1st Cir. 1993). “Short of that
point, such evidence is for the jury to weigh ... for evidence with some element of
untrustworthiness is customary grist for the jury mill.” Manson v. Brathwaite, 432
U.S. 98, 116, 97 S.Ct. 2243, 53 L.Ed.2d 140 (1977).
Furthermore, “the defendant bears the burden to establish an out-of-court
identification was infirm. A two-step analysis is applied to such contentions: (1)
whether an impermissibly suggestive procedure was used, and (2), if so, whether
the identification was nevertheless reliable under a “totality of the circumstances.”
U.S. v. Casey, 825 F.3d at 17 (quoting U.S. v. Rivera-Rivera, 555 F.3d 277, 283
(1st Cir. 2009). Again, Neil v. Biggers five factors become relevant for this
reliability issue.
In this particular case, it seems that the circumstances of the pre-trial
identification were unduly suggestive. Petitioner appears in both the 9 and 6 photo
arrays without any justification as there was no evidence to connect him to the
offense of conviction. And we must remind this Court that before the second photo
array was conducted Petitioner’s arrest photograph appeared in the front page
news and second and more importantly, Petitioner was not given an opportunity to
38

participate in the second identification process. To exacerbate matters, there is not
a single report in which the witnesses reported any marking or tattoo on the
alleged suspects, being the in court identification the first time that such
allegations are made on the part of the only scene witness who identified
Petitioner in open court. And the district court permitted the agents who conducted
the out of court photo arrays to identify Petitioner at trial. This was simply and
totally self serving on the part of the agents.These irregularities certainly adversely
affected and contaminated the witnesses’ in court identification, making same
unduly suggestive and unreliable in violation of the Due Process Clause and the
right to the fair administration of justice.
CONCLUSION
For the reasons set forth above, it is hereby hence very respectfully
requested for this Honorable Court to grant this petition for a writ of certiorari.

39

RESPECTFULLY SUBMITTED.
At San Juan, Puerto Rico, this 1st day of June, 2021.

/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.
U.S.C.A. - First Cir. Bar No. 43285
U.S.D.C. - P.R. Bar No. 207710
P.O. Box 192397
San Juan, P.R. 00919-2397
Tel. (787) 470-4986
E-Mail: goodjrg@gmail.com

40

Case: 18-1859

Document: 00117736822

Page: 1

Date Filed: 05/04/2021

Entry ID: 6419681

United States Court of Appeals
For the First Circuit
No. 18-1859
UNITED STATES OF AMERICA,
Appellee,
v.
JUAN E. SEARY-COLÓN,
Defendant, Appellant.
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Gustavo A. Gelpí, U.S. District Judge]
Before
Howard, Chief Judge,
Thompson and Barron, Circuit Judges.
Johnny Rivera-González for appellant.
Seth A. Tremble, Special Assistant United States Attorney,
with whom W. Stephen Muldrow, United States Attorney, and
Mariana E. Bauzá-Almonte, Assistant United States Attorney, Chief,
Appellate Division, were on brief, for appellee.

May 4, 2021

Case: 18-1859

Document: 00117736822

Page: 2

THOMPSON, Circuit Judge.

Date Filed: 05/04/2021

Entry ID: 6419681

Defendant-appellant Juan E.

Seary-Colón ("Seary") was charged with Hobbs Act robbery, in
violation of 18 U.S.C. § 1951(a) (Count One); murdering a person
through the use of a firearm during a crime of violence, in
violation of 18 U.S.C. § 924(j) (Count Two); possessing a firearm
in furtherance of a crime of violence, in violation of 18 U.S.C.
§ 924(c)(1)(A)(iii) (Count Three); and being a convicted felon in
possession of a firearm, in violation of 18 U.S.C. § 922(g)(1)
(Count Four).
all counts.

After a three-day trial, the jury convicted him on
Seary now challenges the district court's denial of

his motion to suppress identification evidence, the sufficiency of
the evidence supporting his convictions, and the district court's
determination that Hobbs Act robbery qualifies as a "crime of
violence"

under

18

U.S.C.

§ 924(c),

convictions on Counts Two and Three.
I.
A.

which

underpinned

his

Finding no error, we affirm.

Background

Factual Background
On April 3, 2012, around 3:20 p.m., two men entered the

Piezas Importadas located on Monserrate Avenue in Carolina, Puerto
Rico, to commit a robbery.

Piezas Importadas is an auto parts

store that sells merchandise obtained from suppliers located in
the mainland and abroad.

April 3rd, 2012 was a busy day at the

store, and several customers and employees were around at the time

-2-

Case: 18-1859

Document: 00117736822

of the robbery.

Page: 3

Date Filed: 05/04/2021

Entry ID: 6419681

Five employees, including José Méndez-del Valle

("Méndez") and the store manager David Méndez-Calderón ("MéndezCalderón"), were working behind the service counter facing the
door through which the robbers entered.

As the store owner's wife

and store accountant, María Judith Sanabria-Rivera ("Sanabria"),
was getting ready to leave for the day and was heading towards the
door, the two men burst into the store.
was wearing a cap and a dark hoodie.

The first man to enter

He entered the store while

brandishing a firearm, announced the robbery, and ordered everyone
to "lie on the ground."

Sanabria noticed that the man had "very

specific" eyebrows that "were marked going up and then thin coming
down; not . . . like . . . regular eyebrows that men usually have."
She also noticed that he had a peculiar tattoo on his left leg,
which had light, basic colors, "not like the tattoos that are used
nowadays with . . . lot[s] of color[s]."

Before anyone could get

down, the gunman walked straight to the service counter, pointed
his gun at Méndez-Calderón, and shot him once in the face.

Méndez-

Calderón fell to the ground and died shortly thereafter as a result
of the gunshot wound.

The gunman started walking from one side

of the store to the other while cursing and yelling at everyone
not to look at him.

Meanwhile, the other robber jumped over the

service counter and asked Méndez for the store's petty cash.
Méndez complied and handed him a metal box with approximately

-3-

Case: 18-1859

Document: 00117736822

$1,020.

Page: 4

Date Filed: 05/04/2021

Entry ID: 6419681

The robber took the box with the money, pushed Méndez to

the floor, and told him to stay on the ground and not look at him.
The robber then jumped back over the counter, joined the gunman,
and ran out of the store with the gunman.
approximately forty seconds.

The robbery lasted

After realizing that the robbers

were gone, Sanabria called 9-1-1, reported the robbery and asked
for help for Méndez-Calderón.

The store closed to the public

after the robbery and remained closed for more than a day.
Law enforcement officers arrived at the scene shortly
thereafter.

Agent Calixto Caamaño-De Jesús ("Agent Caamaño") from

the Puerto Rico Police was one of the officers who arrived at the
scene and was initially in charge of the investigation.

Agent

Caamaño was at the time assigned to the Homicide Division of the
Center for Criminal Investigations in Carolina.
Bureau

of

Investigation

Martínez-Martínez

("Agent

("FBI")

task

Martínez")

force

and

agents,

José

("Agent Bocanegra"), also arrived at the scene.

Two Federal
Emmanuel

Bocanegra-Ortiz
Law enforcement

recovered from the scene a projectile jacket, a fired projectile,
and a Federal Smith & Wesson .40-caliber shell casing.

They also

interviewed Méndez and Sanabria that same day.
The next day, April 4, Agent Caamaño showed Méndez a
nine-photo array that included Seary's photo, along with eight
fillers.

The array included photos of male subjects of roughly

-4-

Case: 18-1859

Document: 00117736822

the same ages and eye color.

Page: 5

Date Filed: 05/04/2021

Entry ID: 6419681

All subjects also had the same hair

color, and eight of the nine subjects, including Seary, had
relatively short hair.

At least six of the subjects, including

Seary, seemed to have manicured eyebrows.

Agent Caamaño warned

Méndez regarding the procedure for the array and instructed him
that "if he sees" the photo of the person who had shot MéndezCalderón the day before, he should let Agent Caamaño know.

Méndez

picked Seary's photo, which occupied the fourth position in the
array, as that of the man who had shot Méndez-Calderón during the
Piezas Importadas robbery.
On April 6, 2012, local law enforcement agents arrested
Seary at a two-level house located in Villa Fontana, Carolina,
that was shared by some of Seary's relatives.

The agents found

Seary hiding inside a cut-out box spring that was under a mattress
in a bedroom located on the first floor of the house.

His arrest,

however, was unrelated to the Piezas Importadas robbery and MéndezCalderón's murder.

Instead, Seary's arrest was related to a local

criminal case in which he was a fugitive.

Seary's arrest was

featured on the cover of Primera Hora, a local newspaper, on April
9, 2012.

Two days later, Agent Caamaño called Méndez and asked

him if he had seen the April 9 Primera Hora newspaper.

Méndez

responded that he had not but that he would get a copy of the
newspaper.

Agent Caamaño instructed him to call him if he saw

-5-

Case: 18-1859

Document: 00117736822

Page: 6

Date Filed: 05/04/2021

anything that caught his attention in the newspaper.

Entry ID: 6419681

Later that

day, Méndez obtained a copy of the newspaper and called Agent
Caamaño.

Méndez told him that the man featured in the newspaper

cover was the same man that had killed Méndez-Calderón, that he
had the "same" face, and that the man was wearing the same dark
hoodie that the gunman had worn on the day of the robbery.

That

same day, Agent Caamaño went to Piezas Importadas to have Méndez
date and sign the Primera Hora newspaper cover.
interaction,

Méndez

repeated

that

the

man

During that

portrayed

in

the

newspaper cover had killed Méndez-Calderón and stated that "he had
the same deep look [in the picture] that he had when he had come
into the business and had killed David [Méndez-Calderón]."
Following Seary's arrest, the FBI officially took over
the case, and Agent Bocanegra became the case agent.

Agents

Bocanegra and Martínez interviewed Sanabria at her house on April
11,

2012.

Sanabria

described

the

gunman

to

the

agents

and

mentioned the peculiar tattoo that he had on his left leg.1

On

April

to

17,

2012,

Agents

Bocanegra

and

Martínez

Sanabria's house to show her a six-photo array.

returned

The array included

Seary's photo as well as those of five of the fillers from the

At the time of the trial, in 2018, Agent Martínez did
not remember if Sanabria had mentioned the gunman's tattoo during
her interview with him and Agent Bocanegra, though Sanabria
testified that she had mentioned it at some point.
1

-6-

Case: 18-1859

Document: 00117736822

Page: 7

Date Filed: 05/04/2021

Entry ID: 6419681

April 4 array, though the positioning of the photos was altered.2
Hence, the photos included in the April 17 array shared the same
similarities as those in the April 4 array.

Agent Martínez advised

Sanabria that the array "may or may not contain a picture of the
person who committed the crime" at Piezas Importadas.

Sanabria

looked at the photo array and "quickly" picked Seary's photo.
In mid-April, several FBI task force agents executed a
search warrant in the Villa Fontana house where Seary had been
arrested the week before.

During the search, one of the officers

seized a Federal Smith & Wesson .40-caliber bullet inside a pot
located on the second floor of the house.
B.

Procedural Background
Based on the April 3, 2012 incident, a federal grand

jury returned an indictment on April 19, 2012, charging Seary with
Counts One through Four.
Seary moved to suppress Méndez's and Sanabria's out-ofcourt identifications and to prevent them from identifying him in
court.

He argued that it was "highly questionable how [Seary's

photo] made it into the array" in the first place, that Méndez's
description
circumstances

of

Seary

"lack[ed]

surrounding

reliability,"

Sanabria's

and

identification

that

the

"raise[d]

In the April 4 photo array, Seary's photo occupied
position number four out of nine whereas in the April 17 photo
array Seary's photo occupied position number five out of six.
2

-7-

Case: 18-1859

Document: 00117736822

Page: 8

questions as to its reliability."

Date Filed: 05/04/2021

Entry ID: 6419681

He also complained that the

April 17 array had only six photos, that the agents conducted a
photo array instead of a line-up, and that the procedures used for
conducting the photo array did not "fully compl[y]" with the "best
practices" stated in a U.S. Department of Justice memorandum dated
January 6, 2017.
The government opposed the motion, arguing that the
photo arrays used in this case were not unduly suggestive.

After

reviewing the photo arrays, the district court agreed with the
government.

Accordingly, it denied Seary's motion to suppress.

Seary's jury trial began on February 20, 2018.
government

introduced

Méndez's

and

Sanabria's

The

out-of-court

identifications as exhibits at trial, as well as the testimony of
twelve witnesses, including both Méndez and Sanabria.
testified

that

he

was

standing

next

to

Méndez

Méndez-Calderón

and

approximately three feet across from Seary when he saw Seary shoot
Méndez-Calderón.

According to Méndez, he looked at Seary's face

for two or three seconds and he "couldn't forget that face because
[Seary] had a look that was cold, as if he didn't care anything
about life."

Méndez admitted that he had been mistaken when on

April 11, 2012, he told Agent Caamaño that the man featured in the
newspaper cover had the same dark hoodie that the gunman had been
wearing during the Piezas Importadas robbery, and attributed the

-8-

Case: 18-1859

Document: 00117736822

Page: 9

Date Filed: 05/04/2021

Entry ID: 6419681

mistake to the fact that he was focused on Seary's face and
firearm, not on his clothing, and to both pieces of clothing being
similar.

For her part, Sanabria testified that she looked at

Seary for two seconds, including the exact moment when he shot
Méndez-Calderón,3 and that Seary's manicured eyebrows and unusual
tattoo on his left leg caught her attention.

Sanabria also

identified Seary in court as Méndez-Calderón's shooter.
After all of the government's identification evidence
had been presented, Seary moved the district court to reconsider
its denial of his motion to suppress.
identification

was

not

reliable

Seary argued that Méndez's

because

Méndez

had

seen

the

gunman's face for only two or three seconds and had admitted to
being wrong about the gunman's clothing.

Seary contended that

Sanabria's identification should also be suppressed as unreliable
because she too only saw the gunman's face for approximately three
seconds, the FBI conducted a photo array instead of a line-up, her
photo

array

contained

only

six

photos,

and

there

were

inconsistencies between her testimony and that of Agent Martínez
as to whether Sanabria had previously mentioned seeing a tattoo on
the gunman's left leg.

The district court denied Seary's motion

The government introduced into evidence a still image
of Sanabria looking at the gunman pointing a firearm at MéndezCalderón.
3

-9-

Case: 18-1859

Document: 00117736822

Page: 10

Date Filed: 05/04/2021

Entry ID: 6419681

for reconsideration on the same grounds that it had denied his
original motion to suppress and clarified that the court's ruling
"d[id] not preclude [Seary] from arguing to the jury that the
government has not met its burden of proof as to the fact that
[he] was indeed the person who committed the crime."
At the close of the government's case, Seary moved for
a judgment of acquittal under Rule 29 of the Federal Rules of
Criminal Procedure, which the district court denied.

Seary then

presented one witness in his defense: his stepfather, Santiago
Muñiz-Cruz ("Muñiz").

Muñiz testified that he lived on the second

floor of the Villa Fontana house where Seary had been arrested,
and that the Federal Smith & Wesson .40-caliber bullet seized from
inside a pot in mid-April 2012 belonged to him.

According to

Muñiz, he practiced Santeria, and in 2006 or 2007 he found that
bullet on the street and brought it home to use in his Santeria
rites.
After presenting his witness, Seary renewed his motion
for a judgment of acquittal, which the court again denied.

On

February 26, 2018, the jury found Seary guilty of all counts.
Seary renewed his motion for acquittal, which the court denied for
a third time.
On August 20, 2018, the district court sentenced Seary
to imprisonment terms of 240 months for Count One, life for Count

-10-

Case: 18-1859

Document: 00117736822

Page: 11

Date Filed: 05/04/2021

Entry ID: 6419681

Two, 120 months as to Count Three, which the court merged with
Count Two after finding that Count Three was a lesser-included
offense of Count Two, and 120 months for Count Four.

Seary timely

appealed.
II.
A.

Discussion

The Motion to Suppress
Seary challenges the district court's denial of his

motion

to

suppress

Méndez's

and

Sanabria's

out-of-court

identifications of him in the photo arrays and to prevent them
from identifying him in court.

He generally contends that the

photo arrays constructed by the police were in violation of the
Due Process Clause.

See Neil v. Biggers, 409 U.S. 188, 196–98

(1972).
Identification evidence -- both out-of-court and incourt identifications -- "should be suppressed as a matter of due
process

'only

in

extraordinary

cases.'"

United

States

v.

Holliday, 457 F.3d 121, 125 (1st Cir. 2006) (quoting United States
v. Henderson, 320 F.3d 92, 100 (1st Cir. 2003)).

To withhold

identification evidence from a jury, the defendant must persuade
the court that the "identification procedure was so impermissibly
suggestive as to give rise to a very substantial likelihood of
irreparable misidentification."

Biggers, 409 U.S. at 197 (quoting

Simmons v. United States, 390 U.S. 377, 384 (1968)); see also

-11-

Case: 18-1859

Document: 00117736822

Page: 12

Date Filed: 05/04/2021

Entry ID: 6419681

United States v. Casey, 825 F.3d 1, 17 (1st Cir. 2016) (noting
that "[t]he defendant bears the burden to establish [that] an outof-court identification was infirm").

The defendant must first

establish that the identification procedure was unduly suggestive.
Perry v. New Hampshire, 565 U.S. 228, 241-42 (2012).

"If it was

not, the inquiry ends," United States v. Melvin, 730 F.3d 29, 34
(1st Cir. 2013), and it is for the jury to determine how much
weight to afford the identification evidence, Casey, 825 F.3d at
17.

If, however, the defendant can successfully establish that

the identification procedure was unduly suggestive, we must "then
examine the totality of the circumstances to ascertain whether the
identification was nevertheless reliable."4

Melvin, 730 F.3d at

In Biggers, the Supreme Court set forth the following
factors for evaluating the reliability of identifications:
4

[(1)] the opportunity of the witness to view the criminal
at the time of the crime, [(2)] the witness' degree of
attention, [(3)] the accuracy of the witness' prior
description of the criminal, [(4)] the level of
certainty
demonstrated
by
the
witness
at
the
confrontation, and [(5)] the length of time between the
crime and the confrontation.
409 U.S. at 199-200. "Against these factors is to be weighed the
corrupting effect of the suggestive identification itself."
Manson v. Brathwaite, 432 U.S. 98, 114 (1977). Absent a finding
of a "substantial likelihood of irreparable misidentification,"
"such evidence is for the jury to weigh," as "some element of
untrustworthiness is customary grist for the jury mill" because
"[j]uries are not so susceptible that they cannot measure
intelligently the weight of identification testimony that has some
questionable feature." Id. at 116.
-12-

Case: 18-1859

Document: 00117736822

Page: 13

Date Filed: 05/04/2021

Entry ID: 6419681

34 (citing United States v. DeCologero, 530 F.3d 36, 62 (1st Cir.
2008)).

"[I]f the indicia of reliability are strong enough to

outweigh the corrupting effect of the police-arranged suggestive
circumstances, the identification evidence ordinarily will be
admitted, and the jury will ultimately determine its worth."
Perry, 565 U.S. at 232.

The same analysis applies to both pretrial

and in-court identifications.

See Holliday, 457 F.3d at 125

(noting that the two steps outlined above apply "[b]oth as to
pretrial

identifications

and

in-court

identifications");

id.

("When the conviction is 'based on eyewitness identification at
trial following a pretrial identification by photograph,' we will
reverse on a constitutional basis only if the 'very substantial
likelihood of misidentification' was 'irreparable,' despite the
defendant's opportunity to cross-examine the witness about the
accuracy of the identification." (quoting Simmons, 390 U.S. at
384)).
We review de novo the district court's denial of a motion
to suppress a photo identification.

Id.

Seary asserts two

grounds as to why Méndez's identification of him in the April 4
photo array should have been suppressed.

First, he contends that

Méndez's identification should have been suppressed because "[i]t
is highly questionable" and "suspicious" how Seary made it into
the array in the first place.

This, however, is not enough to

-13-

Case: 18-1859

Document: 00117736822

Page: 14

Date Filed: 05/04/2021

suppress Méndez's identification of Seary.

Entry ID: 6419681

The record shows that

Seary was the only suspect included in the arrays -- the rest were
fillers -- and there is no evidence in the record suggesting that
he was improperly included as a suspect.

Although Seary complains

that the record is silent as to why he was included in the photo
arrays, he had the burden of establishing improper police conduct
and developing the record below in this respect.

See Casey, 825

F.3d at 17; see also Moore v. Dickhaut, 842 F.3d 97, 101 (1st Cir.
2016).

Second, Seary argues that the gunman's description that

Méndez provided "lacks reliability," which may lead to a mistaken
identification.

The fatal flaw with Seary's argument, however,

is that it centers on the reliability of Méndez's identification.
We

do

not,

however,

reach

the

reliability

issue

unless

the

defendant first establishes that the identification procedure was
unduly suggestive.

See Moore, 842 F.3d at 101 (stating that "the

issue of reliability 'comes into play only after the defendant
establishes improper police conduct'" (quoting Perry, 565 U.S. at
241)).
the

And here, Seary does not claim, let alone establish, that

April

4

unnecessarily

photo

array

suggestive

was

unduly

procedures,

suggestive.

reliability

"Absent
is

ensured

through traditional trial protections, such as '. . . vigorous
cross-examination,

protective

rules

of

evidence,

and

jury

instructions on both the fallibility of eyewitness identification

-14-

Case: 18-1859

Document: 00117736822

Page: 15

Date Filed: 05/04/2021

Entry ID: 6419681

and the requirement that guilt be proved beyond a reasonable
doubt,'" id. (quoting Perry, 565 U.S. at 233), which Seary received
in this case.
Next, Seary argues that Sanabria's identification of him
in the April 17 photo array should have been suppressed because:
(1) the array contained only six photos and not nine, as the
April 4 photo array; (2) the procedures used for conducting the
photo array did not "fully compl[y]" with "best practices" stated
in a U.S. Department of Justice memorandum dated January 6, 2017;
(3) "it would have been the best investigative course of action to
conduct a line-up" where defense counsel could have participated,
instead of a photo array; (4) Seary's photo had been featured in
the Primera Hora newspaper cover and Sanabria was allegedly aware
that Seary had been arrested at the time of her identification;
and (5) Sanabria allegedly failed to mention Seary's leg tattoo
before trial.
Seary's first two arguments relate to the procedure
selected by law enforcement to conduct the April 17 photo array.
These arguments, however, lack merit because Seary has failed to
establish that the procedure followed in this case made the photo
array unduly suggestive.

Furthermore, although Seary complains

that the April 4 array had nine photographs, whereas the April 17
array had only six, the evidence shows that the number of photos

-15-

Case: 18-1859

Document: 00117736822

Page: 16

Date Filed: 05/04/2021

Entry ID: 6419681

varied because each photo array identification was conducted by a
different

law

procedures.

enforcement

agency

following

its

own

standard

The first array was conducted by Agent Caamaño, a

local law enforcement officer, who testified that in conducting
the array he followed the Puerto Rico Police's "Norms that Govern
the Photographic Identification Procedure," which establish that
"the witness will be shown no less than nine photographs including
the one of the suspect with similar traits to the suspect."

The

April 17 array, however, was conducted by FBI task force agents
after the case had been transferred to the federal jurisdiction
and followed FBI's

"custom[s] at th[e] time."

In addition,

although Seary argues that the FBI did "not fully compl[y] with"
all of the "best practices" for conducting photo arrays stated in
a

January 6, 2017

U.S. Department of Justice memorandum,

he

acknowledges that said memorandum was issued almost five years
after the April 17 photo array was conducted.5

Moreover, that

memorandum clearly states that the procedures outlined therein
"are not a step-by-step description of how to conduct photo arrays,
but rather set out principles and describe examples of how to
perform them."

Sally Yates, U.S. Dep't of Just., Eyewitness

In any event, we note that the memorandum establishes
that a photo array should include only one suspect and at least
five filler photographs, which the April 17 photo array clearly
complied with. See Sally Yates, U.S. Dep't of Just., Eyewitness
Identification: Procedures for Conducting Photo Arrays 3 (2017).
5

-16-

Case: 18-1859

Document: 00117736822

Page: 17

Date Filed: 05/04/2021

Entry ID: 6419681

Identification: Procedures for Conducting Photo Arrays 2 (2017).
It further clarifies that "nothing in th[at] memorandum implies
that

an

identification

not

done

in

accordance

procedures is unreliable or inadmissible in court."
Seary's third argument fares no better.

with

th[ose]

Id.
Although he

might have preferred that the FBI conduct a line-up in the presence
of defense counsel instead of a photo array identification, he has
failed to show any illegality behind the FBI's decision to conduct
a photo array.

In fact, Agent Martínez testified that the FBI's

usual practice is to conduct photo arrays instead of line-ups,
that during his approximately seven years working with the FBI he
had conducted over forty photo arrays and not a single line-up,
and that the fact that defense counsel might have been present
during a line-up had no bearing on the FBI's decision to conduct
a photo array in this case.6

We note that Seary had not yet been indicted when the
FBI conducted the April 17 photo array. Thus, the constitutional
right to counsel would not have attached if a line-up had been
conducted at that time. See Gullick v. Perrin, 669 F.2d 1, 3 n.5
(1st Cir. 1981) ("At the time of the lineup, the petitioner had
not yet been indicted and, thus, his right to counsel at the lineup
had not yet attached." (citing Kirby v. Illinois, 406 U.S. 682,
690 (1972))); but cf. Roberts v. Maine, 48 F.3d 1287, 1291 (1st
Cir. 1995) (considering the possibility that an exception to that
rule might apply in "extremely limited" circumstances not present
in this case).
6

-17-

Case: 18-1859

Document: 00117736822

Page: 18

Date Filed: 05/04/2021

Seary's next contention also fails.

Entry ID: 6419681

Although Seary's

photo had been featured in the newspaper cover eight days before
Sanabria identified him in the April 17 photo array, there is no
evidence that law enforcement showed Sanabria Seary's photo in the
newspaper or directed her to that photo, or that she had even seen
it. 7

Accordingly, any potential suggestiveness stemming from

Sanabria

having

seen

the

newspaper

cover

suppression under the two-step analysis.

is

not

subject

to

See Perry, 565 U.S. at

243-44, 248 (noting that a witness's out-of-court identification
of a "defendant to police officers after seeing a photograph of
the defendant in the press captioned 'theft suspect,'" might be
affected by "[e]xternal suggestion," but holding that the two-step
"due process check" does not apply "when the identification was
not procured under unnecessarily suggestive circumstances arranged
by law enforcement").

Furthermore, the newspaper article was

unrelated to the Piezas Importadas robbery, and Sanabria was
informed that the array "may or may not contain a picture of the
person who committed the [robbery]."

Nor is there any evidence

that Méndez's prior identification of Seary influenced Sanabria's
identification.

Sanabria denied having learned of Seary's arrest

from Méndez, who in turn denied having told anyone that he had

There is no evidence that Sanabria was aware that
Seary had been arrested at the time that she identified him in the
photo array.
7

-18-

Case: 18-1859

Document: 00117736822

Page: 19

Date Filed: 05/04/2021

identified Seary in the April 4 array.

Entry ID: 6419681

There is simply nothing

in the record to conclude that Sanabria's identification procedure
was unduly suggestive or otherwise tainted by either the photo on
the newspaper cover or Méndez's prior identification.
Seary's

last

contention

--

that

Sanabria

allegedly

failed to mention his leg tattoo before trial -- relates to the
reliability

of

Sanabria's

identification,

and

suggestiveness of the identification procedure.

not

to

the

Yet, as discussed

above, when, as here, a defendant fails to establish that the
identification procedure was unduly suggestive, we do not reach
the reliability issue.
U.S. at 241.

See Moore, 842 F.3d at 101; Perry, 565

Instead, "reliability is ensured through traditional

trial protections," and it is up to the jury to determine how much
weight to afford to the identification evidence.

Moore, 842 F.3d

at 101 (citing Perry, 565 U.S. at 233).
Finally,

Seary

also

contests

Sanabria's

in-court

identification, arguing that it was "tainted by [her] earlier
[improper pretrial] identification and therefore it must also be
excluded."
in-court

Because the success of Seary's challenge to Sanabria's

identification

is

contingent

on

the

success

of

his

arguments contesting her pretrial identification, which we have
already rejected, his challenge to the in-court identification
likewise fails.

-19-

Case: 18-1859

Document: 00117736822

Page: 20

Date Filed: 05/04/2021

Entry ID: 6419681

In sum, identification evidence should be withheld from
a jury "only in extraordinary cases."

Melvin, 730 F.3d at 34

(quoting United States v. Rivera–Rivera, 555 F.3d 277, 282 (1st
Cir. 2009)).

Seary has failed to show that the district court

erred in denying his motion to suppress the identification evidence
here.
B.

Sufficiency of the Evidence
Seary's sufficiency-of-the evidence challenge on appeal

is quite limited.

Seary concedes that an armed robbery took place

at Piezas Importadas on April 3, 2012, during which Méndez-Calderón
was murdered, but he claims that the evidence is insufficient to
link him to the armed robbery and murder.
Because Seary preserved his challenge to the sufficiency
of the evidence, we review de novo the district court's denial of
his motion for a judgment of acquittal.

United States v. Trinidad-

Acosta, 773 F.3d 298, 310 (1st Cir. 2014), superseded in part on
other grounds, U.S.S.G. App. C Supp., Amend. 794, as recognized in
United States v. De la Cruz-Gutiérrez, 881 F.3d 221, 225 (1st Cir.
2018).
could

In so doing, we determine whether "any reasonable jury
find

all

the

reasonable doubt."

elements

of

the

crime

[proven]

beyond

a

United States v. Santos-Soto, 799 F.3d 49, 57

(1st Cir. 2015) (quoting United States v. Azubike, 564 F.3d 59, 64
(1st Cir. 2009)).

We need not conclude that "no verdict other

-20-

Case: 18-1859

Document: 00117736822

Page: 21

Date Filed: 05/04/2021

Entry ID: 6419681

than a guilty verdict could sensibly be reached, but must only
[be] satisf[ied] . . . that the guilty verdict finds support in a
plausible rendition of the record."

United States v. Hatch, 434

F.3d 1, 4 (1st Cir. 2006) (internal quotation marks omitted).
In determining whether the record provides such support,
we do not view each piece of evidence separately, re-weigh the
evidence, or second-guess the jury's credibility calls.

Santos-

Soto, 799 F.3d at 57; United States v. Acosta-Colón, 741 F.3d 179,
191 (1st Cir. 2013).

Instead, we evaluate the sum of all the

evidence and inferences drawn therefrom in the light most favorable
to the government, resolve all credibility disputes in its favor,
and "determine whether that sum is enough for any reasonable jury
to find all the elements of the crime proven beyond a reasonable
doubt, even if the individual pieces of evidence are not enough
when viewed in isolation."

Santos-Soto, 799 F.3d at 57; see also

United States v. Gaw, 817 F.3d 1, 3-4 (1st Cir. 2016).

We will

only reverse on a sufficiency challenge if, "after viewing the
evidence and reasonable inferences in the light most flattering to
the prosecution, [we conclude that] no rational jury could have
found him guilty beyond a reasonable doubt."

Acosta-Colón, 741

F.3d at 191.
Here,

the

government

presented

several

pieces

of

evidence to prove that Seary was the armed robber who murdered

-21-

Case: 18-1859

Document: 00117736822

Méndez-Calderón.

Page: 22

Date Filed: 05/04/2021

Entry ID: 6419681

During the government's case in chief, Méndez

testified that he was behind the service counter facing the door
through which Seary and his accomplice entered the store in the
afternoon of April 3, 2012.

Méndez further testified that he

looked at Seary for two or three seconds as Seary entered the store
while

brandishing

a

firearm,

walked

towards

Méndez-Calderón,

pointed his firearm at Méndez-Calderón, and shot him.

Méndez

explained that this occurred while he was standing next to MéndezCalderón, approximately three feet away from Seary, that his
attention was focused on Seary's face and firearm, and that he
could not forget the facial expression that Seary had as these
tragic

events

unfolded.

Méndez

further

testified

that

he

identified Seary in the nine-photo array presented to him on the
day following the robbery and again in a picture featured in the
cover of the Primera Hora newspaper published on April 9, 2012.8
Agent Caamaño also testified as to both of Méndez's out-of-court
identifications of Seary.
Sanabria's testimony.

In addition, the government presented

Sanabria's testimony corroborated Méndez's

account of how Seary entered the store with a firearm at hand and
murdered Méndez-Calderón.
for

approximately

two

She testified that she looked at Seary

seconds,

noticed

his

"very

specific"

We note that the cover of the April 9 Primera Hora
newspaper was introduced at trial without objection, and Seary
does not challenge that evidence on appeal.
8

-22-

Case: 18-1859

Document: 00117736822

Page: 23

Date Filed: 05/04/2021

Entry ID: 6419681

eyebrows and the peculiar tattoo on his left leg, and saw the exact
moment when Seary shot Méndez-Calderón.

Sanabria identified Seary

as the robber who murdered Méndez-Calderón both in the six-photo
array conducted on April 17, 2012, and in court.
Agent

Martínez

also

testified

as

to

FBI task force

Sanabria's

out-of-court

identification of Seary and how "quickly" she had picked Seary's
photo from the array conducted on April 17, 2012.

Additional

evidence, including two surveillance videos and still images from
those videos, corroborated Méndez's and Sanabria's accounts.

In

addition, other government witnesses testified to having recovered
a projectile jacket, a fired projectile, and a Federal Smith &
Wesson .40-caliber shell casing from the scene, and having later
found a matching Federal Smith & Wesson .40-caliber bullet during
the execution of a search warrant at the Villa Fontana house where
Seary was arrested.
Seary argues that this evidence is insufficient because
only two eyewitnesses identified him in photo arrays despite there
being several other employees and customers at the store when the
robbery occurred, and only one of them also identified him in
court.

Seary's argument is a non-starter as we have repeatedly

held that "[t]estimony from even just 'one witness can support a
conviction.'"

United States v. Alejandro–Montañez, 778 F.3d 352,

357 (1st Cir. 2015) (quoting United States v. De La Paz–Rentas,

-23-

Case: 18-1859

Document: 00117736822

Page: 24

Date Filed: 05/04/2021

Entry ID: 6419681

613 F.3d 18, 25 (1st Cir. 2010)); Foxworth v. St. Amand, 570 F.3d
414, 426 (1st Cir. 2009) (noting that "a criminal conviction can
rest on the testimony of a single eyewitness" and "[e]ven if the
eyewitness's
individual

testimony

of

conviction").

dubious

is

uncorroborated

veracity,

it

can

and

comes

suffice

to

from

an

ground

a

Furthermore, "[t]here is no requirement . . . that

a witness who makes an extrajudicial identification must repeat
the identification in the courtroom."
Seary

also

argues

that

Foxworth, 570 F.3d at 427.

the

evidence

supporting

his

convictions is insufficient because the identifications made by
Méndez

and

Sanabria

untrustworthy.

are

unreliable

Specifically,

and

Seary

their

argues

testimony

that

Méndez

was
and

Sanabria "did not have much time to view the [gunman]," and that
they must have been in a state of "panic, stress[,] and anxiety"
during the robbery, which casts doubts about the accuracy of their
recollections.

Seary also contends that it strains credulity that

Méndez "allegedly saw [him] but cannot state what [he] was saying
[during the robbery]" or that Méndez did not speak with Sanabria
about his identification of Seary as the gunman.

In addition, he

notes that there were some inconsistencies between Sanabria's and
Agent

Martínez's

testimony

regarding

whether

Sanabria

had

previously mentioned to law enforcement that the gunman had a
tattoo on his left leg, which makes Sanabria's testimony "highly

-24-

Case: 18-1859

Document: 00117736822

suspicious."

Page: 25

Date Filed: 05/04/2021

Entry ID: 6419681

Seary further notes that Sanabria testified to

having heard two gunshots, yet, because law enforcement recovered
only

one

shell

casing

at

the

scene,

there

was

no

evidence

corroborating Sanabria's version.
In making these arguments, Seary tries to call into
question the credibility of the witnesses' testimony and the
reliability of their out-of-court identification of him.

Yet, in

assessing the sufficiency of the evidence supporting a defendant's
conviction, we do not re-weigh the evidence or second-guess the
jury's credibility determinations.
61.
tried

Santos-Soto, 799 F.3d at 57,

Defense counsel vigorously cross-examined the witnesses and
to

undermine

their

credibility

by

highlighting

these

inaccuracies and inconsistencies, but the witnesses' testimony
"was neither inherently improbable nor materially undermined by
any other unimpeachable proof."

Foxworth, 570 F.3d at 426.

The

jurors were free to credit the witnesses' testimony, and we cannot
disturb their decision.

See Santos-Soto, 799 F.3d at 57.

Seary next argues that Méndez's identification of him in
the

nine-photo

array

"may

have

been

compromised

[by]

the

newspaper['s] . . . front page photograph of [Seary]," and that
the "reliability and trustworthiness" of Sanabria's out-of-court
identification of him may have also been "affect[ed]" because the
array shown to her had fewer photos than the one shown to Méndez.

-25-

Case: 18-1859

Document: 00117736822

Page: 26

Date Filed: 05/04/2021

Entry ID: 6419681

Seary's argument regarding Méndez's identification is
based on an incorrect premise.

The evidence shows that Méndez

first identified Seary in the nine-photo array on April 4, 2012,
one day after the robbery, and that Seary's photo was featured on
the newspaper cover five days later, on April 9, 2012.

Hence,

Méndez's prior identification of Seary in the nine-photo array
could not have been influenced by something that had not yet
occurred.

The evidence also shows that while Méndez's photo array

was conducted by local law enforcement officers pursuant to local
standard procedures, Sanabria's photo array was conducted by the
FBI pursuant to FBI standard procedures.

In any event, the

reliability of the identification of Seary in the photo arrays was
a matter to be determined by the jury after defense counsel argued
the point vociferously to the jury.
evidence

presented

to

the

credibility determinations.

jury

or

We cannot re-weigh the
second-guess

the

jury's

Id.

Finally, Seary protests that law enforcement did not
test the clothes he was wearing when he was arrested for DNA,
analyze

"blood

spatter

or

gun

powder

residue,"

"conduct

any

ballistic test or examination," lift any fingerprints from the
scene, or enhance the surveillance footage for a better image of
the robbers.

Nor did law enforcement recover physical evidence

linking him to the crime scene, such as the clothes he was wearing

-26-

Case: 18-1859

Document: 00117736822

Page: 27

Date Filed: 05/04/2021

Entry ID: 6419681

during the robbery or the metal box and money taken from Piezas
Importadas.

Although Seary acknowledges that the Federal Smith &

Wesson .40-caliber bullet that was seized from his house matched
the Federal Smith & Wesson .40-caliber shell casing recovered at
the crime scene, he attempts to undermine the significance of this
evidence by arguing that this is "a very common ammunition" and
that his stepfather testified at trial that the bullet belonged to
him, not to Seary.
We

decline

Seary's

invitation

to

overturn

his

convictions because the government did not procure additional
testing.

When

assessing

the

sufficiency

of

the

evidence

supporting a conviction, we look only at the evidence presented at
trial.

See Trinidad–Acosta, 773 F.3d at 310–11.

We do "'not

consider the potential magnitude of the evidence not presented,'
because doing so would be 'an invitation to examine whether the
Government might have presented a more convincing case, not whether
it in fact presented a sufficient one.'"

Santos-Soto, 799 F.3d

at 62 (quoting United States v. García, 758 F.3d 714, 721–22 (6th
Cir. 2014)).

Lastly, we note that, although Seary's stepfather

testified at trial that the bullet recovered during the execution
of

a

search

warrant

was

not

Seary's

resolution

of

the

conflicting

witnesses,

and

the

plausibility

but

evidence,

-27-

of

his,

"[t]he

actual

the

credibility

of

competing

explanations

is

Case: 18-1859

Document: 00117736822

Page: 28

Date Filed: 05/04/2021

exactly the task to be performed by a rational jury."

Entry ID: 6419681

Foxworth,

570 F.3d at 427 (quoting Matthews v. Abramajtys, 319 F.3d 780, 790
(6th Cir. 2003)); Acosta-Colón, 741 F.3d at 191 (noting that in
assessing the sufficiency of the evidence, we must choose the
inference "most compatible with the jury's guilty verdict" when
confronted with competing inferences).

Moreover, we do not need

to be convinced "that the government succeeded in eliminating every
possible

theory

consistent

with

the

defendant's

innocence."

Trinidad-Acosta, 773 F.3d at 311 (quoting United States v. Troy,
583 F.3d 20, 24 (1st Cir. 2009)).
Here, we conclude that the sum of all the evidence
presented by the government and the inferences drawn therefrom was
sufficient for a rational jury to conclude beyond a reasonable
doubt that Seary was the armed robber who murdered Méndez-Calderón
on April 3, 2012.

See Santos-Soto, 799 F.3d at 62 (noting that a

sufficiency-of-the-evidence challenge will fail if the defendant's
conviction "rests on sufficient evidence," even if the jury's
finding of guilt is not "inevitable based on the evidence").
C.

"Crime of Violence"
Seary argues that Hobbs Act robbery is not categorically

a crime of violence for purposes of 18 U.S.C. § 924(c) and thus
cannot constitute a predicate offense for his possession of a
firearm or murder convictions under sections 924(c)(1)(A)(iii) and

-28-

Case: 18-1859

Document: 00117736822

924(j), respectively.

Page: 29

Date Filed: 05/04/2021

Entry ID: 6419681

Because, in his view, Hobbs Act robbery

could only constitute a crime of violence under the residual clause
invalidated by the Supreme Court in United States v. Davis, 139
S. Ct. 2319, 2336 (2019), Davis compels the conclusion that his
sections 924(c)(1)(A)(iii)

and

924(j)

convictions

are

unconstitutional.
We have previously rejected Seary's argument.

We held

in United States v. García-Ortiz, that "because the offense of
Hobbs Act robbery has as an element the use or threatened use of
physical force capable of causing injury to a person or property,
a conviction for Hobbs Act robbery categorically constitutes a
'crime of violence' under section 924(c)'s force clause."
F.3d 102, 109 (1st Cir. 2018).

904

We therefore affirm Seary's

convictions on Counts Two and Three.
III.

Conclusion

For the foregoing reasons, we affirm Seary's convictions
on all counts.
Affirmed.

-29-

Case: 18-1859

Document: 00117736833

Page: 1

Date Filed: 05/04/2021

Entry ID: 6419686

United States Court of Appeals
For the First Circuit
_____________________
No. 18-1859
UNITED STATES OF AMERICA,
Appellee,
v.
JUAN E. SEARY-COLÓN,
Defendant, Appellant.
__________________
JUDGMENT
Entered: May 4, 2021
This cause came on to be heard on appeal from the United States District Court for the
District of Puerto Rico and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: Juan
E. Seary-Colón's convictions on all counts are affirmed.
By the Court:
Maria R. Hamilton, Clerk

cc: Johnny Rivera-Gonzalez Sr., Mariana E. Bauza Almonte, Nicholas Warren Cannon, Seth A.
Tremble, Juan E. Seary-Colón

